WAIVER

Supreme Court of the United States

No. 20-252
Gannett Co., Inc., et al. v. Ryan Larson
(Petitioners) (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
¥ Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

¥ I am a member of the Bar of the Supreme Court of the United States.

0 Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
sendin, 2 Syl
Date: aha Jojo

Stephen C. Fiebiger

 

(Type or print) Name.

 

O Mr. OMs. OMrs. O Miss
Firm _ Stephen C. Fiebiger Law Office, Chartered

 

Address 3000 West County Road 42, Suite 310

Burnsville, Minnesota . 55337
City & State Zip

952-746-5171

 

Phone

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce Steven J. Wells, Timothy J. Droske, Nicholas J. Bullard

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
